<html>
<title> - DEPARTMENT OF STATE OPERATIONS AUTHORIZATION AND EMBASSY SECURITY ACT, FISCAL YEAR 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                     DEPARTMENT OF STATE OPERATIONS
                AUTHORIZATION AND EMBASSY SECURITY ACT,
                            FISCAL YEAR 2016

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 1635

                               __________

                              MAY 26, 2016

                               __________

                           Serial No. 114-182

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-259PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

S. 1635, Department of State Operations Authorization and Embassy 
  Security Act, Fiscal Year 2016.................................     2
  Amendment in the nature of a substitute to S. 1635 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................   162
      Amendment to the amendment in the nature of a substitute to 
        S. 1635 offered by:
          The Honorable Mo Brooks, a Representative in Congress 
            from the State of Alabama............................   242
          The Honorable Steve Chabot, a Representative in 
            Congress from the State of Ohio......................   245
          The Honorable Gerald E. Connolly, a Representative in 
            Congress from the Commonwealth of Virginia...........   247
          The Honorable Scott DesJarlais, a Representative in 
            Congress from the State of Tennessee.................   249
          The Honorable Jeff Duncan, a Representative in Congress 
            from the State of South Carolina.....................   250
          The Honorable Jeff Duncan..............................   251
          The Honorable Eliot L. Engel, a Representative in 
            Congress from the State of New York..................   252
          The Honorable William Keating, a Representative in 
            Congress from the Commonwealth of Massachusetts......   255
          The Honorable Robin L. Kelly, a Representative in 
            Congress from the State of Illinois..................   257
          The Honorable Alan S. Lowenthal, a Representative in 
            Congress from the State of California................   258
          The Honorable Grace Meng, a Representative in Congress 
            from the State of New York...........................   259
          The Honorable Ted Poe, a Representative in Congress 
            from the State of Texas..............................   260
          The Honorable Ted Poe..................................   262
          The Honorable Ted Poe..................................   264
          The Honorable Ileana Ros-Lehtinen, a Representative in 
            Congress from the State of Florida...................   267
          The Honorable Ileana Ros-Lehtinen......................   270
          The Honorable Edward R. Royce..........................   272
          The Honorable Brad Sherman, a Representative in 
            Congress from the State of California................   274
          The Honorable Brad Sherman.............................   275
          The Honorable Christopher H. Smith, a Representative in 
            Congress from the State of New Jersey................   277
          The Honorable Christopher H. Smith.....................   279
          The Honorable Christopher H. Smith.....................   281
          The Honorable Ted S. Yoho, a Representative in Congress 
            from the State of Florida............................   282

                                APPENDIX

Markup notice....................................................   298
Markup minutes...................................................   299
Markup summary...................................................   301
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Material submitted for the record   302
 
                     DEPARTMENT OF STATE OPERATIONS
                   AUTHORIZATION AND EMBASSY SECURITY
                         ACT, FISCAL YEAR 2016

                              ----------                              


                         THURSDAY, MAY 26, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:38 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up Senate bill 
1635, our Department of State Authorities Act. And without 
objection, all members may have 5 days to submit statements or 
extraneous material for the record.
    So I now call up the bill, S. 1635.
    Without objection, Royce Amendment 109 in the nature of a 
substitute, circulated and posted earlier this week, will be 
considered base text, is considered as read, and is open for 
amendment at any point.
    [The information referred to follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      Chairman Royce. As members were notified yesterday, I am 
going to go ahead and call up the bipartisan en bloc before 
recognizing myself and others for statements. And so, without 
objection, the following amendments circulated to your offices 
yesterday, which all members have in front of them, will be 
considered en bloc and are considered as read.
    There is the Brooks amendment 46, the Chabot amendment 40, 
the Connolly amendment 77, DesJarlais amendment 10, Duncan 
amendments 64 and Duncan 65, Engel amendment 95, Keating 
amendment 14, Kelly amendment 42, Lowenthal amendment 75, Meng 
amendment 83, Poe amendment 105, 106, and 107, Ros-Lehtinen 
amendment 46 and 47, Royce amendment 120, Sherman amendment 37, 
Sherman amendment 38, Smith amendments 94, 96, and 98, and the 
Yoho amendment 97.
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Royce. After recognizing myself and the ranking 
member, I will be pleased to recognize any member seeking 
recognition to speak on the bill and on the en bloc amendments.
    So here is the concept. The annual authorization of the 
Department of the State is the signature legislative action of 
this committee. It is our responsibility. The House has passed 
an authorization bill in each of the last six Congresses, and I 
think we are all proud of that. But, unfortunately, when we 
bring the Senate into the mix, it has been 15 years since this 
legislation was signed into law.
    We have an opportunity to break this streak.
    A lack of regular authorizations undermines this 
committee's ability to influence the agenda and activities of 
the Department of State, and as a result, we have seen the 
Department go to other committees to advance priorities. Now, 
that undermines our congressional oversight.
    Today, we will take up the Senate's recently passed State 
Authorities bill from Fiscal Year 2016, which we have 
collaborated on with them. It has been 12 years since the 
Senate passed such a bill. So we should be enthusiastic about 
the opportunity we now have. The process for Fiscal Year 2016 
is completed.
    So today we are considering State Authorities for Fiscal 
Year 2017. In particular, this legislation includes a number of 
critical Embassy security reforms and improvements. And, for 
example, thanks to an amendment by Representatives Frankel and 
Randy Weber, the Department will be authorized to use so-called 
best value criteria when contracting for local guards at U.S. 
facilities overseas, and we all know, in retrospect, how 
imperative this is to make this change.
    The bill requires the State Department to designate a list 
of high-risk, high-threat posts, effectively prioritizing 
resources, prioritizing security for these posts. The State 
Department and Defense Department are directed to jointly 
develop enhanced contingency plans for emergency situations, 
including planning for rapid deployment of military resources 
to keep our personnel safe in time of crisis. And we have 
included important provisions that improve security for 
children and families of U.S. diplomats abroad.
    The bill also contains important provisions to increase 
accountability for sexual exploitation and abuse by U.N. 
peacekeepers. This has been the subject of committee hearings. 
We have also included important provisions to strengthen the 
oversight capacity of the Inspector General, an office that 
this committee successfully fought to have filled after sitting 
vacant for 5 years.
    Lastly, the bill increases flexibility in the Department's 
workforce, allowing civil servants more opportunities to serve 
overseas, authorizing a pilot program to acquire skilled 
workers from the private sector at the midcareer level.
    So I want to thank the many members who contributed to this 
bill. I want to thank our ranking member, Mr. Engel, and let me 
include Chairman McCaul for his language to improve the Rewards 
for Justice Program, and Mr. Brooks for his language to 
increase financial transparency and accountability at the 
United Nations, among others.
    And as a result of these many contributions from members on 
both sides of the aisle here, this is a strengthened and 
important product, a bipartisan bill that bolsters this 
committee's role as overseer of State Department operations, 
and I look forward to seeing this measure advance.
    And I turn now to Mr. Engel for his opening statement.
    Mr. Engel. Thank you, Mr. Chairman, for holding this 
markup. This is perhaps the most significant markup since I 
have been ranking member of the committee. I want to second 
every word you just uttered. I think your statement hit it 
right on the head, and I thank you for that statement.
    In the year 2002, in the wake of a horrific terrorist 
attack, the way our country looked at the world was quickly 
changing, but no one could have predicted the way the next 
years would unfold. A disastrous intervention in the Middle 
East that toppled a regime and paved the way for a group of 
extremists even worse than al-Qaeda. The rapid growth in the 
Asia-Pacific that has drawn the focus of the administration. 
The true extent of the threats of climate change coming into 
clear focus. The development of new technologies that connect 
people around the world in ways we have never known, for better 
or worse.
    In the last 14 years, the challenges and opportunities of 
the 21st century have come into definition. Our policies, here 
and around the world, have done their best to keep pace. But 14 
years ago--14 years ago--was also the last time a State 
Department authorization bill made it to the President's desk. 
It has been 14 years since Congress made a top-to-bottom 
assessment of the way we carry out our diplomacy. And without 
assigning blame as to why this hasn't happened, one thing is 
sure: We are long overdue to move forward on this bill.
    We need to be taking constant stock of the way the State 
Department and other agencies are working to advance American 
leadership and interests around the world, and we need to be 
diligent in looking for ways to enhance those efforts.
    The Defense Department gets reauthorized every single year, 
the Defense Department, virtually without fail. We should place 
no less importance on the agencies whose job it is to prevent 
conflict and diffuse crises. As I have said before on this 
committee, stopping an ongoing crisis is a much costlier 
business than preventing one in terms of American dollars, and 
often American lives. Our diplomats are some of the most 
talented people we have working on the front lines of national 
security. If we fail to give diplomacy the tools and resources 
needed for success, we do so at our peril.
    Furthermore, in my view, if we don't pass this bill--and 
this is what the chairman said and he was so right--if we don't 
pass the bill, we put the importance of this committee at risk. 
With great respect for our colleagues on the other committees 
that deal with national security, by failing to act on our own 
oversight responsibilities we open the door for other 
committees to chip away at our jurisdiction.
    And again, this is something that the chairman and I have 
worked together on. We don't want other committees raiding our 
jurisdiction. So if we pass things, like we are about to do, 
that shows a great deal of importance in what we are doing and 
tells other committees who might want to poach jurisdiction: Go 
away.
    So I am glad to support the measure we are considering 
today. I am grateful to members and staff on both sides of the 
aisle for all their hard work.
    There are a few things in particular I would like to 
emphasize as we start this markup.
    First is to remind ourselves that, at its core, diplomacy 
is about people. Two days ago, the Foreign Service marked its 
92nd anniversary. For nearly a century, some of our most 
dedicated, courageous Americans have chosen this path of public 
service. From consular officers to political counselors to 
career Ambassadors, countless men and women have made their 
mark in every corner of the globe as our country's face to the 
world, and that is a remarkable record.
    And if that century has taught us one thing, it is that if 
we want to get our foreign policy right, we need to have the 
right people making that policy a reality. We need to have them 
in the right places at the right times, and we need to make 
sure they can do their jobs with confidence in their security.
    Diplomacy can be a dangerous business, as we have seen too 
many times. Our diplomats understand that, but they also know 
that you cannot conduct diplomacy from inside a bunker. If we 
are serious about making progress on issues such as climate 
change, human rights, violent extremism, and public health, our 
diplomats need to do much more than just meet with government 
officials. To deal with the complex issues that weave a modern 
foreign policy, we need to practice diplomacy from the bottom 
up, engaging with people and communities in a way that we 
wouldn't have considered a generation ago.
    That is why this bill focuses on the security of our 
Embassies and proper training of our personnel. This bill 
allows the State Department to hire local protection for our 
Embassies on the basis of best value rather than lowest cost. 
In my view, if we are hiring people who we are sure will keep 
our diplomats safe, there is a great deal of value in that, 
even if the dollars-and-cents cost is little more. I want to 
thank Representative Frankel for her work on this provision.
    The bill also authorizes funding to improve the security of 
so-called soft targets, not typical diplomatic facilities, but 
things like schools and school buses for the children of 
diplomats abroad.
    So with this bill, we are doing more to focus on the people 
who make up our State Department. And while we are focused on 
people, we also want the State Department to reflect who we are 
as a country. Our Foreign Service should look the way America 
looks, people from a wide range of backgrounds and 
perspectives. America's diversity is one of our greatest 
strengths, and as our face to the world, our diplomatic corps 
should reflect that strength.
    Diversity is also about more than practicing what we 
preach. Bringing together a diverse workforce means bringing 
together more ideas and different points of view when our 
leaders face tough decisions. The challenges we face are too 
complex for us to lean on old ways of thinking or close our 
eyes to new approaches.
    So we have included in this bill a number of provisions to 
encourage the Department to recruit, train, and retain a 
diverse workforce. We have seen a lot of reporting that the 
State Department has been slow to change in these areas, and 
hopefully these measures will speed the Department in the right 
direction.
    And lastly, I want to thank Chairman Royce for including my 
Western Hemisphere Drug Policy Commission legislation in this 
bill. We are facing an unprecedented heroin epidemic, so we 
need to make sure our drug policy is focused on saving lives. 
On the domestic side, we need to do much more on prevention and 
treatment. My provision will allow us to look outward and take 
stock of what has worked and what hasn't when it comes to our 
drug policy in Latin America and the Caribbean.
    So I am grateful this measure is moving forward, and I am 
grateful for all the creative and forward-looking ideas that 
have gone into this bill. I look forward to continuing to work 
on it. I am very proud of this committee, members on both sides 
of the aisle, in acting on this long overdue legislation. I am 
very proud of the bipartisanship that we have shown on this 
committee. I am very proud of Chairman Royce's leadership. And 
I want to thank all the members, on both sides of the aisle, 
for their cooperation.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We have Mr. Chris Smith from New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
thank you for scheduling this and for your leadership in 
bringing this important bill--and Mr. Engel--to the full 
committee. I want to thank Chairman Corker as well for his 
wonderful work on this bill.
    You know, the Embassy Security Act and this State 
Department reauthorization, I remember back in 2000, I was the 
prime sponsor of the original Admiral Nance and Meg Donovan 
Foreign Relations Authorization Act, which we also called the 
Embassy Security Act. And after we got hit in Dar es Salaam and 
in Nairobi, Kenya, there was a very concerted effort to ensure 
that setbacks, Mylar on the windows, and all the other 
protections were put into place, the hiring of more diplomatic 
security.
    And as the chairman pointed out so well, we have been 
stymied for well over a decade in trying to get an 
authorization. As a matter of fact, the way I got my bill 
passed was to hook it. House passed. Senate wouldn't take it 
up. We hooked it by reference to an appropriations bill, a 
convoluted way to get something into law. This will be straight 
up and the way it should be that both committees of the Senate 
and House do this important work.
    There are many important things in this bill, like I said, 
from strengthening Embassy security to addressing critical U.N. 
reforms, not the least of which is the sexual exploitation and 
abuse committed by U.N. peacekeepers. I have held several 
hearings on the abuse of peacekeepers, including in the DR 
Congo, I went there, I went to Goma, I met with peacekeepers.
    That is still an unfinished business. Peacekeepers are 
still exploiting children and they were still a part of sex 
trafficking. Zero tolerance, which is what the U.N. has said is 
the standard. One of the hearings we called ``Zero 
Compliance.'' It has gotten better in some ways. This 
legislation will help it get even better. So I want to thank 
the chairman again.
    On whistleblowers, we have had two hearings on 
whistleblowers. One of them was cosponsored by my good friend 
and colleague, Ileana Ros-Lehtinen. We looked at WIPO, the 
World Intellectual Property Organization, its director general, 
who has retaliated against whistleblowers who sat right there 
at the witness table and told harrowing tales how they had been 
retaliated against.
    It is unconscionable that people who see waste, fraud, and 
abuse, and great unethical behavior, are themselves retaliated 
against. This legislation, or the amendment I am offering here, 
says use our voice, our vote, and our influence to ensure that 
whistleblowers are protected and the integrity of the U.N. 
system is advanced.
    I also want to thank you for agreeing to include the 
amendment to address the persistent refusal of nations to 
extradite fugitives from justice who have been convicted of 
serious crimes. In 1963, a guy by the name of Wright was 
sentenced to 15 to 30 years in prison in connection to a gas 
station robbery during which Walter Patterson, a decorated 
World War II veteran and Bronze Star recipient, was shot to 
death.
    I have had his family testify at a hearing because Portugal 
refuses to allow him to be extradited back to the United States 
to serve his sentence. He was killed in cold blood, convicted 
by a judicial process here in New Jersey, or in the United 
States, and then not only did he leave and enter Portugal 
illegally, he hijacked a plane from Detroit to Miami and went 
to Algeria. The fact that the Portuguese have refused to--I 
mean, this festering sore for this family in my district knows 
no bounds. When they testified, the daughters and the family, 
they were in tears that their father's death, this man is 
living in Portugal, Wright, and we can't get him back here to 
serve his sentence.
    Finally, the third amendment that I am offering, and I 
thank you for including it in en bloc, has to be do with 
autism. Mr. Chairman, as you know, I founded the Autism Caucus, 
I have written three laws on autism, including the most recent 
Autism CARES Act. Everywhere I go and travel, and other members 
get the same feedback, we know that many of our Foreign Service 
Officers, their dependents, their children especially, are 
disadvantaged when they are deployed to areas when there is no 
ABA therapy and other kinds of assistance, particularly early 
childhood intervention.
    This encourages the State Department to have their backs, 
to provide and to ensure that ABA therapy, which is probably 
the most effective means of early childhood intervention, to 
get children to a better way of living throughout their entire 
lifecycle. This amendment is backed by Autism Speaks, as well 
as Autism Society, and I thank you for including it.
    And I yield back the balance of my time.
    Chairman Royce. Thank you.
    Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair and Mr. Engel.
    First of all, I want to start by saying thank you very much 
for the bipartisanship of this committee. I know we members, we 
dicker sometimes, we have our differences of opinion, but when 
it counts, we step up to the plate and really offer something 
that we need. And I want to just echo some of the things that 
you highlighted already and just thank the other members for 
all their contributions to this very good bill.
    The last State Department authorization bill was signed 
into law in 2002, and I think we all know that the world has 
changed significantly since then, especially in regards to our 
security needs.
    As a member of this committee, we have the privilege of 
traveling all over the world and meeting our diplomatic corps, 
the people who work in our Embassies. And I will say that one 
of the highlights of all my trips has been to meet these folks 
who are so smart and educated and so patriotic and dedicated.
    And it is not just our Ambassadors, who are very, very 
impressive, but it is all the people who work in the Embassies. 
And I really feel that it is our responsibility to make sure 
that they are as safe as they can be.
    It used to be that most places in the world you consider 
will be safe, and think about just the past year or two, Paris, 
Brussels, Jakarta, cities where you would think, hey, we should 
be safe there. But horrible terrorist attacks.
    Under the Vienna Convention, security of foreign Embassies 
is the responsibility of the host country. When the host 
country cannot or will not provide security, the State 
Department hires the local guard force to secure Embassies, 
search and sweep entrance, patrol and secure the perimeter. 
U.S. Marines may also be present.
    Again, I want to thank Mr. Royce and Mr. Engel for allowing 
Mr. Weber and I to include in this bill a provision that 
provides that the State Department has the authority to use the 
best value contracting for security for all diplomatic posts. 
Without this authority, when awarding contracts to Embassy 
security firms, the State Department is required to choose the 
lowest priced option, regardless of qualifications.
    This is very upsetting when you consider that the State 
Department is allowed to use best value contracting for 
janitorial and landscaping needs.
    Best value allows them to consider past performance, risk 
aversion, reliability, and innovative pricing practices. A 
former Ambassador came to me and shared a story when she heard 
about this provision and explaining that the diplomatic corps 
was very supportive of this, that in one of her services they 
contracted with local guards, they had to get the lowest price. 
The guards, believe it or not, they were recently released from 
prison, they stole from them, they stole from their families, 
they ran away during unannounced safety drills, they harassed 
them, and actually one of the security guards killed the 
family's pet cat. This is what they had guarding one of the 
Embassies.
    So this goes a long way in changing that. This authority 
has been requested by the State Department, and I feel very 
good that we are giving them that authority, I think this is 
the least of what we can do to protect the very, very brave, as 
I said before, the brave, educated, smart, patriotic people who 
we send across the world to not only protect our interests, but 
to help allies grow and protect their interests.
    And I yield back, Mr. Chair.
    Chairman Royce. We go now to Mr. Tom Marino of 
Pennsylvania.
    Mr. Marino. Thank you, Chairman. I am pleased that today 
our committee is taking up a bill authorizing parts of the 
State Department.
    One area that I was disappointed to see that this bill did 
not address was export control reform. In 2009, this 
administration began work on export control reform, and so far 
it has been very successful in most areas.
    Unfortunately, due to this administration's ongoing 
aversion to firearms, they have not completed export control 
reforms in regards to firearms and ammunition. Out of the 18 
categories the administration included in their initiative, 12 
had final rules written that are now in effect. Only three 
categories--firearms, guns, and armament and ammunition--have 
not even had a rule proposed.
    And their agency work on these categories has been 
completed for more than 4 years, but this administration 
refuses to publish them in the Federal Register. These 
categories were scheduled to be included in this initiative by 
the administration but have been left behind.
    It is time that we make all our exports competitive. This 
administration should finish the work that they started and 
complete export control reform.
    Here in the near future, my colleague, Collin Peterson, 
will be introducing a resolution that expresses Congress' 
support for completing export control reform. This is an 
important sign from Congress of the importance of these 
reforms. I will be a cosponsor of this legislation and hope my 
colleagues will join me in supporting this resolution. I look 
forward to working with the committee, the administration, and 
other members to ensure that export control reform is completed 
fully.
    And I yield back.
    Chairman Royce. Thank you.
    I want to thank Mr. Marino for his consideration and 
interest in issues that, although outside the scope of this 
bill, are serious issues that the committee will continue to 
study.
    We go now to Grace Meng of New York.
    To Mr. William Keating of Massachusetts.
    Mr. Keating. I yield back.
    Chairman Royce. Mr. Keating yields back.
    And we go to Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman. And I too would 
like to thank the chairman and the ranking member for bringing 
up this very important legislation.
    In a time of rapid change, frequent unrest in the world, it 
is crucial for the United States to demonstrate our continued 
commitment to diplomacy. Our taking up of this bill renews that 
commitment by investing in our diplomats and in their safety.
    I am especially pleased to see the provisions strengthening 
diversity and recruitment, employment, retention, and 
promotion, and expanding the Rangel, Pickering, and the Payne 
Fellowships. Our Foreign Service Officers are America's face to 
the world in countries everywhere. They should reflect and 
represent the rich diversity that has made our Nation truly 
great.
    In this spirit, I have a very simple amendment in the en 
bloc directing the Secretary to conduct and submit a study on 
workforce issues and challenges to career opportunities for 
tandem couples in the Foreign Service, as well as couples with 
only one spouse in the Foreign Service. This language is taken 
directly from the Senate version of this bill.
    Foreign Service Officers bravely serve their country for 
years, for many decades in many cases. The report requested in 
this amendment will be a valuable tool in illuminating the 
challenges facing Foreign Service Officers with spouses that 
are both in and out of the service.
    I just want to thank the chairman and the ranking member 
and their staffs for working to include this simple amendment 
in the en bloc.
    And I thank you again, and I yield back.
    Chairman Royce. Mr. David Trott from Michigan.
    Mr. Trott. Thank you, Chairman Royce and Ranking Member 
Engel, for bringing this bill up for consideration today.
    While our committee has jurisdiction over many items 
relating to our national security and diplomatic relations with 
foreign governments, one of our most important tasks is 
oversight of the State Department and making sure our diplomats 
and Embassies are as secure as possible.
    This bill includes many crucial provisions regarding 
oversight, whistleblower protections, and also programs to 
ensure that we recruit the best and brightest candidates to 
serve as our diplomats overseas. We also send a clear message 
in this bill to countries that commit gross human rights 
violations that they will be held accountable and aid could be 
withheld.
    Taxpayers will be happy to see a more transparent State 
Department because this bill requires the Office of Management 
and Budget to report on all U.S. assessments and contributions 
to the United Nations.
    I am proud of the bipartisan efforts in this committee and 
look forward to full passage of the bill by the House of 
Representatives.
    I yield back my time.
    Chairman Royce. Thank you, Mr. Trott.
    Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Royce and Ranking Member 
Engel, for holding this markup today. I am pleased that this 
committee has once again come together in a spirit of 
bipartisanship to mark up the State Department authorization 
for the first time since 2013. I commend my colleagues and the 
committee staff for the hard work that went into getting us to 
this point.
    Holding this markup is indeed noteworthy, especially when 
we consider how much the world has changed since the last State 
Department authorization bill was signed into law back in 2002. 
I welcome this opportunity of the Foreign Affairs Committee to 
carry out our responsibility in authorizing the State 
Department.
    American leadership in the world is critically important 
today, given the many challenges facing the United States, our 
allies, and our partners around the globe. This bill provides 
the State Department with the tools it needs to confront these 
challenges by addressing issues such as Embassy security and 
personnel protection, diversity in hiring and assignments, and 
addressing concerns related to the United Nations.
    I am the co-chair of the Congressional Peacekeeping Caucus, 
which I formed with my Republican colleague Adam Kinzinger of 
Illinois, so that Members of Congress can discuss the 
importance of regional peacekeeping operations and their impact 
on U.S. foreign policy and national security. That is why I am 
particularly pleased that this bill addresses oversight of and 
accountability for peacekeeper abuses by requiring the 
Secretary to submit a strategy and implementation plan for 
combating sexual exploitation in U.N. peacekeeping operations 
to help reduce occurrences of such abuse and to improve the 
capacity of the U.N. to prevent and identify sexual 
exploitation.
    I am pleased that the bill makes clear that it is the 
policy of the United States Government to withhold assistance 
to any security force unit of a foreign country that has 
committed a gross violation of human rights, including sexual 
exploitation or abuse.
    And I welcome the whistleblower protections that are 
included in the bill which call for the U.S. Permanent 
Representative to advocate for the removal of any official whom 
the Secretary determines has failed to meet ethical standards, 
to ensure that whistleblower protections are extended to U.N. 
peacekeeping personnel, and to encourage the U.N. to provide 
redress to any whistleblower who has suffered retribution.
    The Africa, Global Health, Global Human Rights, and 
International Organizations and Middle East and North Africa 
subcommittees have heard testimony this year from brave U.N. 
employees who spoke out against abuses within the U.N. system 
which highlighted not only gross misconduct of U.N. teams in 
places such as Sudan, but also in subsequent so-called 
investigations. The United States should be a leader in the 
effort to overhaul the U.N.'s whistleblower systems and 
protections.
    I also want to applaud the provisions in the bill to 
increase diversity at the State Department, augment fellowship 
and training opportunities, and enhance benefits and career 
opportunities for Department personnel. These efforts will help 
attract the best people to represent the Nation and conduct the 
important work of the Department.
    The evolution and growth of the demands on the State 
Department since 2002, when the Department's authorization was 
last signed into law, are significant. This bill offers the 
first opportunity we have had in a long time to ensure the 
State Department is well positioned to confront 21st century 
challenges.
    And I again want to thank you, Mr. Chairman and our ranking 
member, and your staffs, for the work in bringing us to this 
day. And with that, I yield back.
    Chairman Royce. Thank you.
    We are going to go to Mr. Jeff Duncan.
    Mr. Duncan. Thank you, Mr. Chairman, and thanks for this 
important bill. I have two amendments on the en bloc, and I 
appreciate them being included in the en bloc.
    I do think it is important to authorize programs and 
agencies. I think we have been operating for way too long 
without doing authorization bills, not in this committee but in 
the Congress as a whole. So that is just where I stand on that.
    Two amendments that I have, one just says it is time for 
the State Department really to follow the IG and the GAO 
recommendations and start implementing that. It is going to be 
huge cost savings for the United States and for our taxpayers. 
The hard-working American taxpayers expect agencies to operate 
within their means and to try to implement cost savings at 
every turn, good best management practices, things I do in the 
private sector, because it is the taxpayers' money, and I think 
the amendment I have addresses that.
    The second amendment, we see often--too often--in the 
United Nations where countries that are the beneficiaries of 
our tremendous benevolence of foreign assistance and other 
programs not go with us in the U.N. on at least half the time. 
We see percentages like Haiti, 18 percent of the time they vote 
with the U.S., and they receive a tremendous amount of taxpayer 
dollars. They are recipients of programs that the U.S. 
implements in their countries, but yet they can't stand with us 
in the United Nations. I just think that is important. And it 
is more than just the foreign assistance money. It is about 
doing what is right for the United States and what we stand for 
and the fact that we are their benefactor.
    So the second amendment just addresses that, that before 
entering into agreements with the member states, that they vote 
with us more often. I think that is something that we need to 
talk about at a future date going forward, and it may be an 
authorization bill itself.
    But I do appreciate these amendments being in the en bloc, 
and I look forward to supporting the bill. And with that, I 
yield back.
    Chairman Royce. Thank you, Mr. Duncan.
    We go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair. I too want to thank you 
and Ranking Member Engel for your leadership and your staff, 
and thank you for including my amendment in this bill.
    I applaud the State Department's commitment to innovation 
and its continued work to modernize its infrastructure. My 
amendment would help ensure that the State Department stays on 
track in these efforts.
    Last year, in its Quadrennial Diplomacy and Development 
Review, the State Department included in its recommendations 
the establishment of a hub for analytics, strategy, and 
knowledge management. I know that many, if not all of my 
colleagues here support the creation of this hub as a way to 
improve efficiency at State.
    If implemented correctly, integrating data analytics into a 
shared hub will allow for deeper analysis, increased 
collaboration, and overall improved efficiency.
    Similarly, I serve as the ranking member of the Oversight 
Subcommittee on Information Technology. In this role, my top 
priority has been to update Federal agencies' IT systems, which 
will save billions of dollars while improving the security of 
our cyber infrastructure. A large part of this modernization is 
transitioning to the cloud.
    My amendment simply requires that State update this 
committee on these two vital efforts. Improving data sharing 
and cybersecurity at State is something that all of my 
colleagues can support.
    Thank you, Mr. Chairman, for the opportunity to offer this 
amendment. I yield back.
    Chairman Royce. Thank you, Congresswoman Kelly.
    We need to go to William Keating of Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I too want to mention 
at the outset the work of this committee and the work of you, 
Mr. Chairman, and Ranking Member Engel. Earlier in this 
Congress we had the first of its kind hearing centering on the 
role of women in security. It was really a breakthrough moment 
for the committee, and I want to thank you for your work on 
this.
    This amendment that is included in the en bloc is part of 
that. And I just want to thank your staffs as well for working 
with us on this. And I want to make mention of Representative 
Schakowsky, who has been working on separate legislation not as 
a member of this committee, but outside, to work to advance 
legislation with women, peace, and security that really 
codifies the important policies and practice to promote the 
inclusion and participation of women in peace and security.
    This amendment is a sense of Congress that, first, Deputy 
Assistant Secretaries be tasked by the Secretary of State with 
overseeing the integration of policy priorities related to 
women's participation in preventing and resolving conflicts; 
and second, that all Foreign Service Officers receive at least 
one training on the importance of women's participation in 
these particular areas.
    It is an important issue, the role of women in security. 
When we talk about being more effective in eradicating security 
threats and promoting stability overseas, we need to seriously 
consider the role of women, as this committee has, and the role 
they play in terms of these policies.
    The research is overwhelming in demonstrating that the 
active participation of women in resolving conflict leads to 
longer-term peace, and importantly, better outcomes for 
communities. Just one example through my work, working with 
Chairman Poe as the ranking member on Terrorism, 
Nonproliferation, and Trade, in this subcommittee, and as a 
member of the Homeland Security Committee, we found that 
engaging women in efforts to counter violent extremism has 
consistently led to law enforcement and security experts 
gaining greater access to communities and more effectively 
combating radicalization and the spread of violent extremism.
    So if we want to be as effective as we can be to increase 
stability throughout the world and be smart about our 
expenditures overseas, investing in women's participation in 
security at the local, national, and international levels is 
key.
    I yield back.
    Chairman Royce. Thank you, Mr. Keating. I appreciate the 
contribution here to this debate which this amendment of yours 
has made. And I will just add that the committee is working on 
additional legislation, which we will move on this issue.
    Are there any other members that seek recognition?
    Hearing no further requests for recognition, the Chair 
moves that the committee adopt the amendments considered en 
bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendments considered en bloc are agreed to.
    Are there any additional amendments to the base text?
    Hearing none, the Chair now moves that the committee adopt 
Senate bill 1635, as amended.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
bill, as amended, is agreed to.
    So without objection, this bill, as amended, is ordered 
favorably reported as a single amendment in the nature of a 
substitute, and staff is directed to make any technical and 
conforming changes. And also, without objection, the Chair is 
authorized to seek House consideration of the bill under 
suspension of the rules.
    This concludes our business for today. And I want to thank 
Ranking Member Engel and all of our committee members for their 
contributions and assistance with today's markup.
    The committee is adjourned.
    [Whereupon, at 10:16 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New Jersey


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
